Audit Report

Office of Justice Programs Grant Awarded to the
Colorado Department of Corrections
Colorado Springs, Colorado

Audit Report GR-60-05-006


April 2005
Office of the Inspector General


Executive Summary





The Office of the Inspector General, Audit Division, has completed an audit of the Serious and Violent Offender Reentry Initiative Grant No. 2002-RE-CX-0018 in the amount of $2,163,367 (including two supplements) awarded by the Office of Justice Programs (OJP), to the Colorado Department of Corrections (CDOC), Colorado Springs, Colorado.  The Serious and Violent Offender Reentry Initiative is a comprehensive effort to address issues confronting both juvenile and adult populations of serious, high-risk offenders as they return to the community.  The purpose of the grant program was to provide funding to develop, implement, enhance, and evaluate reentry strategies that will ensure the safety of the community and the reduction of serious, violent crime.  

The CDOC, which is responsible for the efficient and effective management of adult offenders, subawarded $915,566 to the Department of Human Services, Division of Youth Corrections (DYC), Denver, Colorado, which is responsible for the supervision, development, and reintegration of juvenile offenders.

At the time of our field work, the CDOC Project Manager was unavailable to provide a full historical description of the CDOCs approach to administering the grant.  However, we were able to apply alternative procedures, including increased transaction testing, to successfully complete the audit.

We tested the CDOCs and DYCs accounting records to determine if costs claimed under the grant were allowable, supported, and in accordance with applicable laws, regulations, guidelines, and terms and conditions of the grant.  As of August 3, 2004, the CDOC had been reimbursed $545,708 of the $2,163,367 total grant funds awarded.

Our audit revealed that the CDOC claimed and was reimbursed for unallowable and unsupported costs.  We found that: 1) the CDOC transferred funds between budget categories which exceeded 10 percent of the award amount; 2) the CDOC did not adequately monitor its subgrantee; 3) the CDOC and DYC did not adequately monitor contractors; 4) personnel were not hired in accordance with the approved grant budget; and 5) required progress reports were not always submitted timely.

Based on the deficiencies below, we identified dollar-related findings totaling $349,084 or 16.1 percent of the $2,163,367 total grant funds awarded.1   Specifically, we found:

The CDOC transferred funds between budget categories which exceeded 10 percent of the award amount, resulting in questioned costs of $127,012.

	The DYC did not and does not plan to hire two personnel approved in the grant budget resulting in funds to better use of $134,362.

	The CDOC was reimbursed $87,710 for costs charged to the grant that were either not supported by adequate documentation or were not allowable according to the approved grant budget.

	The CDOC did not adequately monitor its subgrantee.

	The CDOC and DYC did not adequately monitor their contractors.

	Progress reports were not always submitted or submitted timely.

These items are discussed in detail in the Findings and Recommendations section of the report.  Our audit objectives, scope and methodology appear in Appendix I.
   



Footnotes

The Inspector General Act of 1978, as amended, contains our reporting requirements for questioned costs.  However, not all findings are dollar-related.  See Appendix II for a breakdown of our dollar-related findings and for definitions of questioned costs.